                       Trends in Compliance Activities
                          Through Fiscal Year 2003

                                     April 2004

                       Reference Number: 2004-30-083




This report has cleared the Treasury Inspector General For Tax Administration disclosure
review process and information determined to be restricted from public release has been
                              redacted from this document.
                                              DEPARTMENT OF THE TREASURY
                                                    WASHINGTON, D.C. 20220




INSPECTOR GENERAL
     for TAX
  ADMINISTRATION




                                                        April 23, 2004


       MEMORANDUM FOR DEPUTY COMMISSIONER FOR SERVICES AND
                      ENFORCEMENT


       FROM:                         Gordon C. Milbourn III
                                     Acting Deputy Inspector General for Audit

       SUBJECT:                      Final Audit Report - Trends in Compliance Activities Through
                                     Fiscal Year 2003 (Audit # 200430011)

       This report presents the results of our review of statistical information that reflects
       activities of the Collection and Examination functions. The overall objective of this
       review was to provide statistical information requested by the Internal Revenue Service
       (IRS) Oversight Board and provide trend analyses of that information.
       In summary, the IRS’ overall Fiscal Year (FY) 2003 compliance efforts and results were
       mixed but showed some continuing positive changes that started in FY 2001.
       Specifically, the level of compliance activities and the results obtained in many
       Collection function areas in FY 2003 showed a continuing increase while the number of
       Collection function field staff remained unchanged. Enforcement actions were higher in
       FY 2003 compared to those in FY 2002, but they have not returned to pre-1998 levels.
       Enforcement revenue collected increased substantially in FY 2003, while the total
       amount of uncollected liabilities and the gap between new delinquent accounts and
       account closures decreased slightly.
       The amount owed on accounts in the Queue1 decreased in FY 2003, but the number of
       accounts in inventory increased. While the inventory increased, it is important to
       recognize that the Queue is used differently today than it was in the past. It is now a
       major source of inventory for Collection Field function employees. In addition, a
       significant number of accounts were shelved (removed) from collection inventory and
       may never be worked. The President’s proposed FY 2005 budget provides for
       additional Collection function staffing and legislation to allow some cases to be worked


       1
         The Queue is a holding file for unassigned inventory. Some of the inventory is considered lower priority, but other
       inventory is placed in the file until it can be assigned as workload for Collection function employees.
                                             2

by contract staff. If neither of these provisions is approved, a significant number of
cases will continue to not be worked.
While Examination function staffing decreased during FY 2003, the percent of tax
returns examined increased. The increase was mainly due to increases in
correspondence examinations of tax returns for individuals, which are conducted by
mailing notices to the taxpayer. While there were increases in the number of
examinations of individuals overall during FY 2003, there was a larger increase in the
coverage rate of individuals earning $100,000 and over than for those earning under
$100,000. In addition, there was a significant increase in the number of partnership
return examinations.
However, the number of examinations of corporate tax returns continued the decrease
that started in FY 1997, decreasing a total of 67 percent since that time. The
President’s proposed FY 2005 budget also provides for additional Examination function
staffing. The Commissioner has indicated that some of the increase would be allocated
to corporate compliance.
The IRS is also taking actions to increase the levels of compliance activity. For
example, the IRS is implementing reengineering suggestions aimed at increasing
effectiveness. While it is too early to evaluate the full impact of these changes, they
could make additional staff resources available to address noncompliant taxpayers.
We made no recommendations in this report. However, key IRS management officials
reviewed it prior to issuance.
Copies of this report are also being sent to the IRS managers affected by the report
findings. Please contact me at (202) 622-6510 if you have questions or
Parker F. Pearson, Acting Assistant Inspector General for Audit (Small Business and
Corporate Programs), at (410) 962-9637.
                    Trends in Compliance Activities Through Fiscal Year 2003




                                             Table of Contents


Background ............................................................................................... Page 1
Overall Compliance Indicators Show Mixed Results ................................. Page 1
Many Collection Function Compliance Indicators Improved in
Fiscal Year 2003........................................................................................ Page 2
Some Examination Function Compliance Indicators Improved; Others
Continued to Decline in Fiscal Year 2003.................................................. Page 6
Appendix I – Detailed Objective, Scope, and Methodology ....................... Page 12
Appendix II – Major Contributors to This Report........................................ Page 13
Appendix III – Report Distribution List ....................................................... Page 14
Appendix IV – Glossary of Terms .............................................................. Page 15
Appendix V – Detailed Charts of Statistical Information ............................ Page 17
                  Trends in Compliance Activities Through Fiscal Year 2003

                                    We initiated this review of nationwide compliance statistics
 Background
                                    for examination and collection activities at the request of the
                                    Internal Revenue Service (IRS) Oversight Board. Our data
                                    analyses were performed in the Treasury Inspector General
                                    for Tax Administration (TIGTA) Chicago office during the
                                    period January through March 2004 using national reports
                                    prepared by the IRS Headquarters office. The audit was
                                    performed in accordance with Government Auditing
                                    Standards. However, we relied on information accumulated
                                    by the IRS in established reports and did not verify its
                                    accuracy.
                                    Much of the data included in this report are a follow-up to
                                    TIGTA reports issued in May 2000,1 September 2001,2
                                    September 2002,3 and March 2003.4
                                    Detailed information on our audit objective, scope, and
                                    methodology is presented in Appendix I. Major
                                    contributors to this report are listed in Appendix II. A
                                    glossary of terms used is included in Appendix IV. Detailed
                                    charts and tables referred to in the body of this report are
                                    included in Appendix V. Many of the calculations
                                    throughout the report and Appendix V are affected by
                                    rounding. All calculations were performed using the actual
                                    numbers rather than the rounded numbers that appear in the
                                    report.
                                    The combined Collection and Examination functions
Overall Compliance Indicators
                                    enforcement staffing declined from 25,000 at the beginning
Show Mixed Results
                                    of Fiscal Year (FY) 1996 to 16,000 at the end of FY 2003, a
                                    36 percent decrease. While there has been hiring in recent
                                    years, it has not kept pace with attrition. The FY 2004
                                    budget and the President’s FY 2005 proposed budget
                                    provide for increases of 13 percent and 9 percent,
                                    respectively, for tax law enforcement. The Small
                                    Business/Self-Employed (SB/SE) Division hired

                                    1
                                      Management Advisory Report: Evaluation of Reduction in the
                                    Internal Revenue Service’s Compliance Activities (Reference
                                    Number 2000-30-075, dated May 2000).
                                    2
                                      Management Advisory Report: Tax Return Filing and Examination
                                    Statistics (Reference Number 2001-30-175, dated September 2001).
                                    3
                                      Management Advisory Report: Analysis of Trends in Compliance
                                    Activities Through Fiscal Year 2001 (Reference Number 2002-30-184,
                                    dated September 2002).
                                    4
                                      Trends in Compliance Activities Through Fiscal Year 2002 (Reference
                                    Number 2003-30-078, dated March 2003).
                                                                                                  Page 1
                 Trends in Compliance Activities Through Fiscal Year 2003

                                   800 enforcement personnel in October 2003 and plans to
                                   hire an additional 800 in August 2004. The Large and
                                   Mid-Size Business (LMSB) Division expects to hire
                                   600 technical personnel in FY 2004. In addition, the
                                   Commissioner recently announced that savings from
                                   consolidation of support functions to fewer locations would
                                   be reallocated to enforcement positions.
                                   For some time, the number of tax returns filed and the total
                                   dollars the IRS received increased annually with the
                                   growing economy. In 16 years, the number of tax returns
                                   filed grew by 23 percent, from 140 million in 1987 to
                                   173 million in 2002. From FYs 1988 to 2001, the amount
                                   of revenue received by the IRS grew from $935 billion to
                                   $2.13 trillion, but then fell by a total of 8 percent during
                                   FYs 2002 and 2003, to $1.95 trillion.5 These were the first
                                   decreases in total revenue since FY 1983.
                                   However, the amount of enforcement revenue collected
                                   increased by 10 percent in FY 2003, to $37.63 billion, after
                                   remaining fairly constant at around $34 billion during the
                                   prior 3 years.6 The amount of enforcement revenue
                                   collected (not adjusted for inflation) is almost back to the
                                   FY 1996 level.
                                   Starting in FY 2001, the IRS began to reverse some of the
                                   downward trends in compliance indicators that had occurred
                                   in prior years. In FYs 2002 and 2003, some of these
                                   indicators continued to increase while some fell slightly
                                   from the prior year. The reversal of the downward trend
                                   could continue under the current Commissioner’s influence.
                                   He has stated that the IRS needs to improve compliance
                                   through increased enforcement emphasis, while at the same
                                   time provide effective customer service.
                                   Collection function Revenue Officer staffing levels
Many Collection Function
                                   remained relatively unchanged in FY 2003, with 3,499 field
Compliance Indicators Improved
                                   Revenue Officers as of the end of the fiscal year.7 However,
in Fiscal Year 2003
                                   Revenue Officer staffing is down by 41 percent from the
                                   start of FY 1996. While Collection function Revenue
                                   Officer staffing remained relatively unchanged from
                                   FY 2002 to FY 2003, results from many Collection function

                                   5
                                     See Appendix V, Figure 1.
                                   6
                                     See Appendix V, Figure 3.
                                   7
                                     See Appendix V, Figure 5.
                                                                                         Page 2
Trends in Compliance Activities Through Fiscal Year 2003

                  programs showed improvement during the year. However,
                  the inventory level of the Queue increased during FY 2003.
                  Many Collection function programs showed
                  improvement
                  Many indicators showed positive results for Collection
                  function compliance activity during FY 2003.
                      •   After steadily rising for 6 years, the amount of gross
                          accounts receivable was reduced slightly (by
                          $1.67 billion) from FY 2002 to FY 2003.8
                      •   Total dollars collected on Taxpayer Delinquent
                          Accounts (TDA) by the Automated Collection
                          System (ACS) and the Collection Field function
                          (CFf) employees during FY 2003 was $4.6 billion,
                          an increase of 15 percent from FY 2002.9 The
                          FY 2003 amount is up 28 percent from the 8-year
                          low that occurred in FY 2000.
                      •   The average amount collected per CFf staff year on
                          TDAs increased by 54 percent to $418,116 in
                          FY 2003 from a low in FY 1999.10 The increase
                          from FY 2002 to FY 2003 alone was $56,000
                          (15 percent).
                      •   The number of TDAs closed, excluding shelved
                          accounts, and the number closed by full payment
                          increased by 26 percent and 15 percent, respectively,
                          from FY 2002 to FY 2003.11 The FY 2003 volumes
                          are the highest levels since FY 1998.
                      •   The number of Taxpayer Delinquency
                          Investigations (TDI) closed with a tax return secured
                          or a tax return posted by the ACS and the CFf
                          increased by 12 percent from FY 2002 to FY 2003.
                  While there were still more TDA receipts than closures
                  during FY 2003, the gap between TDA receipts and TDA
                  closures narrowed by 200,067 TDAs.12 The gap at the end



                  8
                    See Appendix V, Figure 3.
                  9
                    See Appendix V, Figure 9.
                  10
                     See Appendix V, Figure 8.
                  11
                     See Appendix V, Figures 14 and 15.
                  12
                     See Appendix V, Figure 12.
                                                                          Page 3
Trends in Compliance Activities Through Fiscal Year 2003

                  of FY 2002 was a record high of 1,876,845 TDAs for the
                  8-year period we analyzed.
                  Use of collection enforcement tools including liens, levies,
                  and seizures increased substantially from lows experienced
                  in FY 1999 or FY 2000.13 The number of liens filed
                  exceeded the FY 1997 level. However, the number of levies
                  and seizures are still substantially lower than their pre-1998
                  levels.
                        Figure 1. Use of Collection Function Enforcement Tools
                                    Liens              Levies          Seizures
                   FY 1996              750,225          3,108,926               10,449
                   FY 1997              543,613          3,659,417               10,090
                   FY 1998              382,755          2,503,409                2,307
                   FY 1999              167,867            504,403                  161
                   FY 2000              287,517            219,778                    74
                   FY 2001              426,166            674,080                  234
                   FY 2002              482,509          1,283,742                  296
                   FY 2003              548,683          1,680,844                  399
                  Source: Collection Report 5000-23, Automated Lien System (liens for
                  FYs 2001 through 2003), Customer Service Activity Reports (levies for
                  FYs 2001 through 2003), and IRS Manual Reconciliation of Seizure
                  Logs.14

                  These changes might be attributed to management emphasis
                  on the collection programs, including the implementation of
                  the SB/SE Division Collection Reengineering initiatives
                  during the past 2 years. Some changes recommended by the
                  Collection Reengineering initiatives are still in the initial
                  stages of implementation, and these could have additional
                  impacts on the collection compliance indicators. While it
                  appears these efforts have had a positive impact on
                  collection statistics, the Collection function should continue
                  to monitor impacts of the changes to ensure the positive
                  trend continues.




                  13
                    See Appendix V, Figures 16 to 18.
                  14
                    The numbers of liens and levies were adjusted due to omissions in the
                  automated reports that have occurred since the reorganization
                  (FY 2001). The seizure numbers are based on a manual reconciliation
                  the IRS performs to determine the actual number of seizures made rather
                  than those on the automated reports, which show slightly higher
                  numbers.
                                                                                 Page 4
Trends in Compliance Activities Through Fiscal Year 2003

                  Unassigned Collection function inventory is increasing
                  The inventory of unassigned collection cases is maintained
                  in the Queue. Historically, the Queue was not used as a
                  major source for active workload. However, 48 percent of
                  CFf workload came from the Queue during FY 2003,
                  compared to just 9 percent during FY 1999.
                  The dollar amount of cases in the Queue decreased by
                  6 percent during FY 2003 to $19.2 billion, after increasing
                  each year since FY 1996. The number of accounts
                  increased after 3 years of remaining relatively constant.15
                  During FY 2003, the number of taxpayers with unpaid tax
                  liabilities in the Queue increased by 15 percent to 591,372,
                  and the number of taxpayers with investigations of unfiled
                  tax returns in the Queue increased by 25 percent to
                  959,075 taxpayers.16 Although many of these cases may be
                  assigned to be worked, a significant amount may never be
                  worked.
                  The Queue inventory figures do not include the millions of
                  unpaid tax periods and unfiled return investigations shelved
                  or surveyed (removed) from Collection function inventory
                  during the last 3 years. From FY 2001 through FY 2003, a
                  total of 4.4 million TDAs17 with balance due amounts
                  totaling $19.8 billion were removed from Collection
                  function inventory. During the same period, a total of
                  10.7 million TDI tax periods were removed. These cases
                  were removed from Collection function inventory because
                  they were considered less productive and may never be
                  worked.
                  The Collection function is not able to work all of the
                  existing accounts in the Queue with current staffing, and, as
                  noted in the preceding section, the number of TDA receipts
                  is outpacing closures. This reinforces the need for
                  additional resources to work the cases. The FY 2004 budget
                  provided additional Collection function staffing, and the
                  President’s budget proposal for FY 2005 requests even more
                  Collection function staffing, as well as legislation to allow
                  some cases to be worked by contract staff. If neither of



                  15
                     See Appendix V, Figure 13.
                  16
                     See Appendix V, Figure 10.
                  17
                     See Appendix V, Figure 11.
                                                                        Page 5
                 Trends in Compliance Activities Through Fiscal Year 2003

                                   these proposals is approved, a significant amount of cases
                                   will continue to not be worked.

                                   Examination function staffing in FY 2003 continued to
Some Examination Function
                                   decline for both Revenue Agents (RA) and Tax Compliance
Compliance Indicators Improved;
                                   Officers (TCO) (formerly referred to as Tax Auditors), with
Others Continued to Decline in
                                   11,234 RAs and 1,194 TCOs as of the end of the fiscal
Fiscal Year 2003
                                   year.18 This is a 35 percent decrease of examiners in field
                                   offices since FY 1996. While there was limited hiring
                                   during FY 2003, attrition outpaced the hiring effort.
                                   Examinations of individual income tax returns increased in
                                   FY 2003 compared to FY 2002, but the number of corporate
                                   tax return examinations continued to decline. Additionally,
                                   examiners in the field offices are spending more time
                                   examining tax returns, resulting in a decrease in the per hour
                                   yield. However, initiatives are being tested and
                                   implemented to improve the Examination function’s
                                   effectiveness, but it is too early to evaluate the full impact of
                                   these changes.
                                   Examination of tax returns
                                   When analyzing examination coverage rates, it is important
                                   to recognize differences in the types of contacts that are
                                   counted in Examination function statistics. Examinations
                                   range from an IRS notice asking for clarification of a single
                                   tax return item that appears to be incorrect (correspondence
                                   examination) to a full face-to-face interview and review of
                                   the taxpayer’s records. Face-to-face examinations are
                                   generally more comprehensive and time-consuming for the
                                   IRS and the taxpayers, and they typically result in higher
                                   dollar adjustments to the tax amounts. Thus, caution should
                                   be used when combining statistics from the various
                                   Examination function programs and tax classes into overall
                                   examination rates. In addition, the IRS uses several
                                   computer-matching and automated error-checking routines
                                   in the computing centers to check the accuracy of tax
                                   returns. Many of these result in adjustments to tax liabilities
                                   but are not included in the traditional “audit rates” and are
                                   not generally reported separately as enforcement efforts.




                                   18
                                        See Appendix V, Figure 4.
                                                                                             Page 6
Trends in Compliance Activities Through Fiscal Year 2003

                  The overall percentage of tax returns examined19 increased
                  by 11 percent from FY 2002 to FY 2003 and has increased
                  by 25 percent since FY 2000. However, the rate is still
                  57 percent lower than it was in FY 1988. The 25 percent
                  increase in the examination rate from FY 2000 was
                  primarily due to an increase in the number of examinations
                  of income tax returns for individuals. Examinations of other
                  types of tax returns did not change significantly or
                  continued to decrease.
                  The IRS attributed the decreases in examinations in part to a
                  decline in and a reallocation of resources.20 As mentioned
                  previously, considerable effort is planned to hire RAs and
                  TCOs during FYs 2004 and 2005. However, the impact of
                  these new hires will not be realized immediately. Not only
                  do these new hires need to be trained, but experienced
                  examiners are taken offline to help provide the training.
                  Therefore, the volume of tax returns examined may not
                  show much improvement for some time after the hiring
                  occurs.
                  Continued effort to increase the examination coverage is
                  important to the effectiveness of the voluntary compliance
                  system. Studies of taxpayer attitudes show that 17 percent
                  of taxpayers felt it was acceptable to cheat on their tax
                  returns, compared to 11 percent in 1999.21 Also, fear of
                  examination is an increasing factor in influencing taxpayers
                  to report taxes honestly. In 2002, 29 percent of taxpayers
                  surveyed cited fear of examination as a factor that
                  influenced their voluntary compliance. This increased to
                  37 percent in 2003.
                  Individual Income Tax Examinations – Overall, the number
                  of examinations of all types of individual income tax returns
                  decreased from FY 1997 through FY 2000. However, the
                  downward trend was reversed in FY 2001 when the number
                  of examinations in most categories increased slightly from
                  the prior years. In FY 2000 only 1 in 202 individual tax


                  19
                     Percentage of Examination coverage has traditionally been calculated
                  by the IRS by dividing the number of returns examined in the current
                  fiscal year by the number of returns filed in the preceding calendar year.
                  20
                     Report to Congress: IRS Tax Compliance Activities
                  (dated July 15, 2003).
                  21
                     2003 IRS Oversight Board Annual Survey on Taxpayer Attitudes
                  (dated September 2003).
                                                                                    Page 7
Trends in Compliance Activities Through Fiscal Year 2003

                  returns were examined, while in FY 2003 this increased to
                  1 in 153.
                       •   The number of individual income tax returns
                           examined increased from 617,765 in FY 2000 to
                           849,296 in FY 2003,22 with 76 percent of those
                           examined in FY 2003 done by correspondence.
                       •   The number of examinations of individual tax
                           returns with income under $100,000 increased from
                           518,218 in FY 2000 to 709,917 in FY 2003.23 This
                           increase was entirely due to an increase in the
                           number of correspondence examinations, as the
                           number of face-to-face examinations decreased by
                           20 percent. Correspondence examinations
                           accounted for 81 percent of the examinations of
                           individuals with incomes under $100,000 in
                           FY 2003.
                       •   The number of examinations of individual tax
                           returns with income of $100,000 and over increased
                           from 99,547 in FY 2000 to 139,379 in FY 2003.24
                           Most (86 percent) of this increase was due to an
                           increase in the number of correspondence
                           examinations; the number of face-to-face
                           examinations increased by only 14 percent.
                           Correspondence examinations accounted for
                           52 percent of the examinations of individuals with
                           incomes $100,000 and over in FY 2003.
                  The Earned Income Tax Credit (EITC) issues made up a
                  substantial portion of the individual income tax examination
                  cases for FYs 2000 through 2003 in the lower income
                  categories and accounted for about 50 percent of the
                  examinations of individuals overall. Excluding EITC
                  examinations, the number of examinations of individuals
                  with income under $100,000 increased 16 percent from
                  250,248 in FY 2000 to 291,134 in FY 2003, and the number
                  with income $100,000 and over increased 38 percent from
                  98,983 in FY 2000 to 136,372 in FY 2003.



                  22
                     See Appendix V, Figure 24.
                  23
                     See Appendix V, Figure 24.
                  24
                     See Appendix V, Figure 24.
                                                                       Page 8
Trends in Compliance Activities Through Fiscal Year 2003

                  Corporate Income Tax Examinations – The number of
                  examinations of all Corporation tax returns has decreased
                  continuously since FY 1997, decreasing a total of 67 percent
                  since that time. The total number of tax returns examined
                  decreased from 93,548 (1 out of 52 returns filed) in
                  FY 1997 to 30,700 (1 out of 182 returns filed) in FY 2003.25
                  The exception to this downward trend was in the
                  examinations of corporate tax returns filed with no balance
                  sheets; the number of these examinations increased from
                  1,823 in FY 2000 to 3,682 in FY 2003. The President’s
                  budget proposal for FY 2005 includes increased
                  Examination function staffing, and the Commissioner has
                  indicated that some of the increase would be allocated to
                  corporate compliance.
                  Partnership Return Examinations – The number of
                  partnership returns examined increased during FYs 2002
                  and 2003. These 2 years of increases allowed for an overall
                  increase in partnership examinations since FY 2000, from
                  6,539 in FY 2000 to 7,871 in FY 2003.26
                  Other Tax Types Examinations (Fiduciary, Employment,
                  Excise, Estate, and Gift Taxes) – The overall number of
                  examinations in these 5 classes also continued to decline,
                  falling from 47,807 in FY 2000 to 40,352 in FY 2003.
                  While the number of examinations in each class is below the
                  FY 2000 level, there were increases in FY 2003 in the
                  number of examinations of excise and estate tax returns.27
                  Examination function yield indicators
                  Yield indicators for the Examination function decreased
                  from FY 1996 to FY 2003 for individual and corporate tax
                  return examinations.28 While the dollar results from
                  examinations per tax return examined increased during the
                  period, the number of hours used to examine each tax return
                  increased substantially. The net effect is a decrease in dollar
                  results per hour spent examining tax returns. Figure 2
                  shows the impact on the results per hour from FY 1996 to
                  FY 2003 for RAs and TCOs.


                  25
                     See Appendix V, Figures 37 to 39 and Figure 50, for coverage by size
                  of corporation.
                  26
                     See Appendix V, Figure 40.
                  27
                     See Appendix V, Figures 41 to 45.
                  28
                     See Appendix V, Figures 20 to 23.
                                                                                 Page 9
Trends in Compliance Activities Through Fiscal Year 2003

                                  Figure 2. Examination Function Yield Per Hour
                                            RA - Individual    TCO - Individual   RA - Corporate

                       $1,100


                       $1,000


                        $900


                        $800


                        $700


                        $600


                        $500


                        $400
                           1996      1997         1998        1999        2000     2001            2002       2003

                  Source: TIGTA Analysis of Examination Table 37.

                  A large portion of the increase in hours spent examining tax
                  returns occurred from FY 2002 to FY 2003. This could be
                  partially attributed to the type of cases that were being
                  worked during the year. The SB/SE Division high-priority
                  cases29 require in-depth probing in an attempt to identify
                  unreported income and to determine reporting compliance.
                  Compliance initiatives
                  The Examination function has been making changes to try
                  to address taxpayer compliance more effectively and
                  efficiently. Some of the changes were implemented during
                  FY 2003 and others are in the very early stages of
                  implementation.
                          •     The SB/SE Division is implementing changes
                                recommended by the Examination Reengineering
                                teams. Results reported in our review of the office
                                redesign30 and preliminary indications in our review
                                of the field redesign31 have been mixed. At the time
                                of our reviews, neither redesign had met the initial
                                goals of reducing hours per return or length of time

                  29
                     These priorities include offshore credit card users; high-risk,
                  high-income taxpayers; abusive schemes and promoter investigations;
                  high-income nonfilers; unreported income; and the National Research
                  Program.
                  30
                     The Office Audit Redesign Pilot Was Effective in Meeting Its
                  Goals, but Its Implementation Needs to Be Monitored (Reference
                  Number 2004-30-033, dated January 2004).
                  31
                     Audit Number 200330024, Field Examination Redesign Review.
                                                                                                          Page 10
Trends in Compliance Activities Through Fiscal Year 2003

                         the case was open. However, both redesigns showed
                         improvements in examination quality and other
                         measures.
                     •   The IRS started publicizing revised priorities (as
                         described in footnote 29) in late FY 2002 and has
                         shown commitment to them by not dropping any
                         since they were established. These priorities were
                         designed to address what the SB/SE Division
                         believes are areas of high noncompliance. The
                         SB/SE Division has been providing refresher
                         training to address technical skills needed to
                         accomplish the examinations included in the revised
                         priorities.
                     •   The LMSB Division is implementing a new
                         approach to limit the number of issues addressed in
                         examinations of large corporate tax returns. It
                         expects this to provide improved efficiency and help
                         increase examination coverage.
                  The IRS should continue to monitor the results of these
                  initiatives to ensure they result in more effective and
                  efficient operations. If measures show decreases in
                  effectiveness or efficiency, management needs to reassess
                  the strategies and make changes where necessary.
                  In addition to the efficiency increases projected by the
                  initiatives mentioned above, the Commissioner has
                  indicated his commitment to improving compliance while
                  also maintaining a high level of customer service. This
                  includes a recent announcement that savings from
                  consolidating processing functions will be used to provide
                  additional compliance staffing. Also, as shown previously
                  in this report, the Congress increased the IRS’ tax
                  enforcement budget for FY 2004. This will equate to a
                  considerable amount of hiring in compliance functions.




                                                                      Page 11
                 Trends in Compliance Activities Through Fiscal Year 2003

                                                                                    Appendix I


                      Detailed Objective, Scope, and Methodology

The overall objective of this review was to provide statistical information requested by the
Internal Revenue Service (IRS) Oversight Board and provide trend analyses of that information.
To accomplish our objective, we analyzed the IRS’ management information reports to
determine the trends and changes in the major areas of compliance. We relied on information
accumulated by the IRS in established reports and did not verify its accuracy. The major issues
we focused on included:
   •   Enforcement Revenue and Gross Accounts Receivable.
   •   Collection and Examination functions staffing.
   •   Collection and Examination functions direct time.
   •   Collection function delinquent account inventories and unfiled return investigations.
   •   Collection function enforcement actions (liens, levies, and seizures).
   •   Examination function coverage of individual and business tax returns compared to the
       number of returns filed in each category.
   •   Examination function results for individual and business tax returns.
   •   Other activity resulting in improving the accuracy of filed tax returns and filing of
       delinquent returns.




                                                                                         Page 12
                 Trends in Compliance Activities Through Fiscal Year 2003

                                                                                 Appendix II


                           Major Contributors to This Report

Parker F. Pearson, Acting Assistant Inspector General for Audit (Small Business and Corporate
Programs)
Richard J. Dagliolo, Director
Amy L. Coleman, Audit Manager
Joseph F. Cooney, Senior Auditor
Joseph P. Snyder, Senior Auditor




                                                                                       Page 13
                Trends in Compliance Activities Through Fiscal Year 2003

                                                                            Appendix III


                               Report Distribution List

Commissioner C
Office of the Commissioner – Attn: Chief of Staff C
Commissioner, Large and Mid-Size Business Division SE:LM
Commissioner, Small Business/Self-Employed Division SE:S
Commissioner, Wage and Investment Division SE:W
Deputy Commissioner, Large and Mid-Size Business Division SE:LM
Acting Deputy Commissioner, Small Business/Self-Employed Division SE:S
Deputy Commissioner, Wage and Investment Division SE:W
Acting Director, Compliance, Small Business/Self-Employed Division SE:S:C
Director, Compliance, Wage and Investment Division SE:W:CP
Chief Counsel CC
National Taxpayer Advocate TA
Director, Office of Legislative Affairs CL:LA
Director, Office of Program Evaluation and Risk Analysis RAS:O
Office of Management Controls OS:CFO:A:M
Audit Liaisons:
       Commissioner, Large and Mid-Size Business Division SE:LM
       Commissioner, Small Business/Self-Employed Division SE:S
       Commissioner, Wage and Investment Division SE:W




                                                                                 Page 14
                 Trends in Compliance Activities Through Fiscal Year 2003

                                                                                    Appendix IV


                                      Glossary of Terms

Automated Collection System (ACS) – A telephone contact system through which telephone
assistors collect unpaid taxes and secure tax returns from delinquent taxpayers who have not
complied with previous notices.
Automated Substitute for Return (ASFR) system – Designed to assess taxes on wage earners
who fail to file tax returns. It analyzes information submitted to the Internal Revenue Service
(IRS) and historical tax returns information.
Balance Sheet – A statement of the financial assets and liabilities of a business at a given date
filed with a corporate income tax return; used by the IRS to group businesses by the size of their
assets.
Collection Field function (CFf) – The unit in the Area Offices consisting of Revenue Officers
who handle personal contacts with taxpayers to collect delinquent accounts or secure unfiled tax
returns.
Corporate Income Tax Returns – United States (U.S.) Corporation Income Tax Returns
(Form 1120) are returns used by corporations to report the corporate income tax.
Earned Income Tax Credit (EITC) – A tax credit for certain people who work and have
income under established limits.
Employment Tax Returns – Various Form 940 return series (primarily Form 940 and
Form 941) filed by businesses to report things such as Employer’s Federal Unemployment Taxes
and Federal Taxes Withheld.
Enforcement revenue – This is any tax, penalty, or interest received from a taxpayer as a result
of an IRS enforcement action (usually an examination or a collection action).
Estate Tax Return – U.S. Estate (and Generation-Skipping Transfer) Tax Return (Form 706) is
the form to be filed on certain estates of deceased persons.
Examination (Face-to-Face) – Field examinations of individuals, partnerships, and corporations
that occur either at the taxpayer’s place of business or through interviews at an IRS office.
Excise Tax Return – Quarterly Federal Excise Tax Return (Form 720) is used to report and pay
excise taxes on a quarterly basis.
Fiduciary Income Tax Return – Income tax returns filed for estates and trusts.
Filing Season – The period from January through mid-April when most individual income tax
returns are filed.
Gift Tax Return – U.S. Gift (and Generation-Skipping Transfer) Tax Return (Form 709) is used
to report transfers subject to the Federal gift taxes and to figure the tax due on those transfers.

                                                                                           Page 15
                 Trends in Compliance Activities Through Fiscal Year 2003

Gross accounts receivable – Includes all unpaid tax, with accrued penalties and interest, on
taxpayers’ delinquent accounts.
Individual Income Tax Returns – U.S. Individual Income Tax Returns (Form 1040 series) are
annual income tax returns filed by citizens or residents of the U.S.
Math Error – A program with which the IRS contacts taxpayers through the mail or by
telephone when it identifies mathematical errors or mismatches of taxpayer information that
would result in a tax change.
Partnership Returns – U.S. Return of Partnership Income (Form 1065) is used to report the
income of domestic partnerships.
Queue – An automated holding file for unassigned inventory of lower priority delinquent cases
that the Collection function does not have enough resources to immediately assign for contact.
Revenue Agent – Employees in the Examination function that conduct face-to-face
examinations of more complex tax returns such as businesses, partnerships, corporations, and
specialty taxes, e.g., excise tax returns.
Revenue Officer – Employees in the CFf who attempt to contact taxpayers and resolve
collection matters that have not been resolved through notices sent by the IRS campuses
(formerly known as service centers) or the ACS.
S Corporation Tax Return – U.S. Income Tax Return for an S Corporation (Form 1120S) is a
return filed by a qualifying small business corporation.
Service Center Collection Branch (SCCB) – Mails the balance due and return delinquency
notices to taxpayers and analyzes and responds to taxpayer correspondence.
Shelved or surveyed cases – These are delinquent unpaid accounts or investigations of unfiled
tax returns that have been taken out of Collection function inventory because they are lower
priority.
Tax Compliance Officer/Tax Auditor – Employees in the Examination function that conduct
mostly examinations of individual taxpayers through interviews at IRS field offices. The
position title was changed in 2002 from Tax Auditor to Tax Compliance Officer.
Taxpayer Delinquent Account (TDA) – A balance due account of a taxpayer.
Taxpayer Delinquency Investigation (TDI) – An unfiled tax return for a taxpayer.
Total Gross Receipts (TGR) – The categories used for Individual Income Tax Returns with
Profit or Loss From Business (Schedule C) or Profit or Loss From Farming (Schedule F) income
based on the total receipts reported.
Underreporter – The Underreporter Program matches items reported on individual tax returns
to information supplied to the IRS from outside sources (such as from employers, banks, and
credit unions) to determine if the taxpayer’s tax return reflected the correct amounts, ensuring
that the taxpayer’s tax amount is correct.


                                                                                          Page 16
                       Trends in Compliance Activities Through Fiscal Year 2003

                                                                                                                           Appendix V


                                  Detailed Charts of Statistical Information

Figure 1 – Internal Revenue Service (IRS) Gross Collections, by Type of Tax
           for Each Fiscal Year (FY) ................................................................................ Page 20

Figure 2 – Change in Enforcement Revenue and Gross Accounts
           Receivable – Percentage Change From FY 1996 .......................................... Page 20

Figure 3 – Amounts of Enforcement Revenue Collected Compared to
           Growth in Gross Accounts Receivable............................................................ Page 21

Figure 4 – Examination Function Staffing at the End of Each FY..................................... Page 21

Figure 5 – Collection Function Revenue Officer Staffing at the End of Each FY ............. Page 22

Figure 6 – Staff Years Detailed to Customer Service ....................................................... Page 22

Figure 7 – Changes in Direct Time Percentages .............................................................. Page 23

Figure 8 – Average Dollars Collected per Staff Year on Taxpayer Delinquent
           Accounts (TDA) by the Collection Field function (CFf) ................................... Page 23

Figure 9 – Total Dollars Collected on TDAs by the CFf and the Automated Collection
           System (ACS).................................................................................................. Page 24

Figure 10 – Delinquent Accounts in the Queue ................................................................ Page 24

Figure 11 – Delinquent Accounts and Unfiled Return Investigations Shelved or
            Surveyed Each Year ...................................................................................... Page 25

Figure 12 – Gap Between New Delinquent Accounts and Account Closures .................. Page 25

Figure 13 – Number of Taxpayers and Amounts Owed in the Queue.............................. Page 26

Figure 14 – Number of Delinquent Accounts Closed Each Year, Not Including
            Shelved Accounts .......................................................................................... Page 26

Figure 15 – Number of Delinquent Accounts Closed by Full Payment............................. Page 27

Figure 16 – Liens Filed by the CFf and ACS .................................................................... Page 27

Figure 17 – Levies Issued by the CFf and ACS................................................................ Page 28

Figure 18 – Number of Seizures Made Each FY .............................................................. Page 28

Figure 19 – Examination Coverage of All Tax Returns – Percentage Change From
            FY 1988.......................................................................................................... Page 29

Figure 20 – Revenue Agent Results on Individual Income Tax Returns
            (Form 1040) – Percentage Change From FY 1996 ....................................... Page 29

Figure 21 – Revenue Agent Results on Corporate Income Tax Returns – Percentage
            Change From FY 1996 .................................................................................. Page 30
                                                                                                                                    Page 17
                      Trends in Compliance Activities Through Fiscal Year 2003

Figure 22 – Revenue Agent Results on Other Types of Tax Returns – Percentage
            Change From FY 1996 .................................................................................. Page 30

Figure 23 – Tax Compliance Officer Results on Forms 1040 – Percentage Change
            From FY 1996 ................................................................................................ Page 31

Figure 24 – Number of Forms 1040 Examined Face-to-Face or Through
            Correspondence............................................................................................. Page 31

Figure 25 – Percentage of Forms 1040 Examined Face-to-Face or
            Through Correspondence .............................................................................. Page 32

Figure 26 – Number of Forms 1040 Examined by Compliance Center
            Correspondence............................................................................................. Page 32

Figure 27 – Number of Forms 1040 Examined by Field Offices....................................... Page 33

Figure 28 – Percentage of Forms 1040 Examined ........................................................... Page 33

Figure 29 – Percentage Examined – Forms 1040 With No Business or Farm Income .... Page 34

Figure 30 – Examination Coverage of Non-business Forms 1040 – Under $100,000 ..... Page 34

Figure 31 – Examination Coverage of Non-business Forms 1040 – $100,000 and Over Page 35

Figure 32 – Examination Coverage of Forms 1040 With Business Income
            (Excluding Farms) .......................................................................................... Page 35

Figure 33 – Examination Coverage of Forms 1040 With Farm Income............................ Page 36

Figure 34 – Examination Coverage of All Corporate Income Tax Returns –
            Percentage Change From FY 1988 to FY 2003 ............................................ Page 36

Figure 35 – Percentage of Corporate Income Tax Returns Examined –
            Corporations With Assets Under $10 Million ................................................. Page 37

Figure 36 – Percentage of Corporate Income Tax Returns Examined –
            Corporations With Assets $10 Million and Over ............................................ Page 37

Figure 37 – Examination Coverage of Corporations With Assets Under $10 Million ....... Page 38

Figure 38 – Examination Coverage of Corporations With Assets $10 Million and Over .. Page 38

Figure 39 – Examination Coverage of S Corporations (Forms 1120S) ............................ Page 39

Figure 40 – Examination Coverage of Partnership Income Tax Returns ......................... Page 39

Figure 41 – Examination Coverage of Fiduciary Income Tax Returns ............................. Page 40

Figure 42 – Examination Coverage of Employment Tax Returns..................................... Page 40

Figure 43 – Examination Coverage of Excise Tax Returns .............................................. Page 41

Figure 44 – Examination Coverage of Estate Tax Returns .............................................. Page 41

Figure 45 – Examination Coverage of Gift Tax Returns ................................................... Page 42

Figure 46 – Other Compliance Contacts on Forms 1040 ................................................. Page 42
                                                                                                                                Page 18
                      Trends in Compliance Activities Through Fiscal Year 2003

Figure 47 – Other Compliance Contacts – Percentage of Coverage on Forms 1040 ...... Page 43

Figure 48 – Numbers and Percentages of Other Compliance Contacts
            on Forms 1040 ............................................................................................... Page 43

Figure 49 – Numbers and Percentages of Examinations on Forms 1040........................ Page 44

Figure 50 – Numbers and Percentages of Examinations on Business Tax Returns........ Page 45




                                                                                                                                Page 19
                                            Trends in Compliance Activities Through Fiscal Year 2003

Figure 1. Internal Revenue Service (IRS) Gross Collections, by Type of Tax for Each
Fiscal Year (FY). Gross tax collections fell again in FY 2003, for a total decrease of 8 percent
since FY 2001. Individual tax collections decreased by 16 percent and employment tax
collection increased by 2 percent from FY 2001 to FY 2003. Individual taxes make up about
one-half of the total collections, while employment taxes account for about one-third.

                          2 .5



                          2 .0                                                                                                               E x c is e T a x e s


                                                                                                                                             E s ta te & G ift
   Trillions of Dollars




                          1 .5


                                                                                                                                             E m p lo y m e n t
                          1 .0                                                                                                               T a xe s

                                                                                                                                             C o rp o ra te
                                                                                                                                             In c o m e
                          0 .5
                                                                                                                                             In d iv id u a l
                                                                                                                                             In c o m e
                          0 .0
                            88

                                  89

                                          90

                                                91

                                                       92

                                                             93

                                                                   94

                                                                          95

                                                                                96

                                                                                        97

                                                                                              98

                                                                                                    99

                                                                                                           00

                                                                                                                  01

                                                                                                                          02

                                                                                                                                03
                          19

                                 19

                                       19

                                               19

                                                      19

                                                            19

                                                                  19

                                                                         19

                                                                               19

                                                                                      19

                                                                                             19

                                                                                                   19

                                                                                                          20

                                                                                                                 20

                                                                                                                       20

                                                                                                                               20
 Source: Treasury Inspector General for Tax Administration (TIGTA) Analysis of IRS Data Book Information.

Figure 2. Change in Enforcement Revenue and Gross Accounts Receivable – Percentage
Change From FY 1996. Enforcement revenue increased sharply in FY 2003, almost returning
to the FY 1996 level, while gross accounts receivable decreased slightly.

                                                       G ro ss A ccoun ts R ece ivable                         E n forcem ent R even ue
   35%

   30%
                                                                                                   22 %                28%      29%               29%
   25%
                                                                                    19 %
   20%
                                                                  14 %
   15%
                                                     9%
   10%

           5%
                                                                                                                                                 -1 %
           0%

    -5%                                              -2%
  -10%
                                                                  -7 %
                                                                                                   -11%            -1 1%        -10 %
  -15%
                                                                                    -1 3%
  -20%
                                  FY 96             FY 97         FY98              FY99           FY00            FY01              FY 02            FY 03

 Source: TIGTA Analysis of Enforcement Revenue Information System and Chief Financial Officer (CFO)
 Financial Report.

                                                                                                                                                     Page 20
                                          Trends in Compliance Activities Through Fiscal Year 2003

Figure 3. Amounts of Enforcement Revenue Collected Compared to Growth in Gross
Accounts Receivable. For the first time since FY 1996, the gross accounts receivable dropped
off slightly in FY 2003. This could be partially due to the 10 percent increase in enforcement
revenue collected during FY 2003.
                                                   Enforcem ent Revenue                           G ross A ccounts Receivable
                            $41                                                                                                             $290




                                                                                                                                                          Billions
                                                                                                                   $280
                            $40                                                                                                             $280
  Billions




                                                                                                   $276                      $278
                            $39
                                                                                                                                            $270




                                                                                                                                                   Gross Accounts Receivable
                            $38           $37.96                                      $264
  Enforcement Revenue




                                                                                                                          $37.63            $260
                                                       $37.25            $257
                            $37
                                                                                                                                            $250
                                                           $246
                            $36
                                              $236                  $35.20                                                                  $240
                            $35
                                                                                         $33.80       $33.78              $34.09            $230
                            $34

                            $33                                                                                                             $220
                                           $216                              $32.94
                            $32                                                                                                             $210
                                      FY96         FY97         FY 98        FY 99        FY 00        FY01        FY02            FY03

 Source: Enforcement Revenue Information System and CFO Financial Reports.

Figure 4. Examination Function Staffing at the End of Each FY. While there was limited
hiring of Revenue Agents and Tax Compliance Officers (formerly referred to as Tax Auditors)
during FY 2003, staffing in both categories continued to decline due to retirements and other
types of attrition.
                                                      Revenue Agents                          Tax Compliance Officers
 18,000
 16,000
                             16,298
 14,000                                   14,949
                                                       14,117           13,783
 12,000                                                                              13,264
                                                                                                  12,625
                                                                                                               11,886      11,752
 10,000                                                                                                                                   11,234

  8,000
  6,000
  4,000                           2,747       2,457        2,263           2,107        1,899         1,605       1,340        1,294         1,194
  2,000
                        0
                              FY 95          FY 96        FY 97          FY 98        FY 99         FY 00       FY 01        FY 02         FY 03

 Source: Examination Table 37.




                                                                                                                                            Page 21
                       Trends in Compliance Activities Through Fiscal Year 2003

Figure 5. Collection Function Revenue Officer Staffing at the End of Each FY. The number
of Revenue Officers working delinquent accounts was unchanged in FY 2003 from FY 2002.
   6,000
             5,908
                          5,537       5,439
   5,000
                                                        4,989
   4,000                                                               4,354
                                                                                                  3,792
                                                                                   3,601                            3,495    3,499
   3,000

   2,000


   1,000

         0
             FY 95        FY 96       FY 97             FY 98          FY 99       FY 00         FY 01              FY 02    FY 03

 Source: Collection Report 5000-23.

Figure 6. Staff Years Detailed to Customer Service. The number of staff years detailed to
customer service dropped off again in FY 2003 and is now lower than that detailed during
FY 1996.

                                      C o lle c tio n                                      E xa m in a tio n
   700
                                                                                646
   600

   500                                                           468


   400
                                              338                         328
                                                           287
   300

                                183                                                                                 174
   200                                  153                                                     167

                                                                                       104
                  88       82
   100       77                                                                                                                  60
                                                                                                               43
                                                                                                                            15
     0
             FY 96        FY 97          FY 98             FY 99           FY 00           F Y 01              FY 02        FY 03

 Source: Collection Report 5000-23 and Examination Table 37.




                                                                                                                                 Page 22
                        Trends in Compliance Activities Through Fiscal Year 2003

Figure 7. Changes in Direct Time Percentages. The Collection and Examination functions
both increased the percentage of overall time spent collecting taxes and examining tax returns,
respectively, since FY 2000. The Small Business/Self-Employed Division Examination function
changed what types of time it captures as direct and indirect in FY 2003, including capturing
some of the previous indirect time as direct. The graph below depicts our recalculation of direct
time based on direct time categories from prior years.
                                        E xa m in ation                           C o llection
  6 5%

  6 0%

  5 5%

  5 0%

  4 5%

  4 0%

  3 5%

  3 0%
             F Y 96        F Y 97       FY 98         FY 99          F Y 00         F Y 01       F Y 02       FY 03

 Source: TIGTA Analysis of Collection Report 5000-23 and Examination Table 37.

Figure 8. Average Dollars Collected per Staff Year on Taxpayer Delinquent Accounts
(TDA) by the Collection Field function (CFf). The average amount collected by the CFf for
each staff year has increased a total of 54 percent since FY 1999. The amount increased by
15 percent from FY 2002 to FY 2003 alone.
  $450,000



                                                                                                               $418,116
  $400,000


                             $376,838
  $350,000                                                                                         $362,224

               $338,307                  $338,105                                     $339,072

  $300,000

                                                                       $289,080
                                                          $272,194
  $250,000




  $200,000
                FY 96         FY 97        FY 98           FY 99        FY 00           FY 01       FY 02        FY 03

 Source: TIGTA Analysis of Collection Reports 5000-2 and 5000-23.



                                                                                                                 Page 23
                                                       Trends in Compliance Activities Through Fiscal Year 2003

Figure 9. Total Dollars Collected on TDAs by the CFf and the Automated Collection
System (ACS). Except for FY 2002 when the amount collected by the ACS dropped back
slightly, the amounts collected by the ACS and CFf have grown constantly since FY 2000. Since
FY 2000, the ACS amount collected has increased by 31 percent, while the amount collected by
the CFf has increased by 26 percent.
                                                                          CFf Amount Collected                                 ACS Amount Collected

                                  $7,000,000
 Thousands of Dollars Collected




                                  $6,000,000                    $2,296,880
                                                 $2,317,426

                                                                                  $2,078,191
                                  $5,000,000

                                                                                                                                                             $1,515,953
                                  $4,000,000
                                                                $3,984,172                        $1,442,540                     $1,275,111     $1,249,261
                                                 $3,778,441
                                                                                                                 $1,159,473
                                  $3,000,000                                      $3,365,075
                                                                                                                                                             $3,083,984
                                                                                                                                 $2,677,226     $2,746,646
                                                                                                  $2,477,034     $2,447,824
                                  $2,000,000


                                  $1,000,000


                                          $0
                                                    FY 96         FY 97             FY 98           FY 99           FY 00           FY 01          FY 02        FY 03

 Source: Collection Report 5000-2.

Figure 10. Delinquent Accounts in the Queue. The number of taxpayers with unpaid tax
liabilities and investigations of unfiled tax returns in the Queue increased significantly from
FY 1996 through FY 2000. There were large reductions from the inventory during FYs 2000
through 2003 because the IRS used a special closing code to remove potentially less productive
cases from the Queue (see Figure 11).
                                                                      TP s with Unpaid Accounts                             TPs with Unfiled Returns
   2,000,000

   1,800,000                                                                                                       1,876,629

   1,600,000

   1,400,000                                                                                      1,282,919

   1,200,000
                                                                                                                                                                 959,075
   1,000,000
                                                                                                                                   821,188
                                                                                                                                                   767,459
                           800,000

                           600,000
                                                                435,337           456,711                                                                    591,372
                                                                                                               537,781         542,406         514,915
                           400,000              326,118
                                                            425,780          407,210           445,877

                           200,000        317,865

                                      0
                                               FY 96          FY 97              FY 98            FY 99          FY 00            FY 01           FY 02        FY 03

 Source: Collection Reports 5000-2 and 5000-4.


                                                                                                                                                                 Page 24
                       Trends in Compliance Activities Through Fiscal Year 2003

Figure 11. Delinquent Accounts and Unfiled Return Investigations Shelved or Surveyed
Each Year. Since FY 1999, the IRS has used special closing codes to remove millions of
unpaid tax periods and unfiled return investigations from the Queue.
                                            Unpaid Accounts                                                  Unfiled Returns
 8,000,000
                                                                                                             7,099,437
 7,000,000


 6,000,000


 5,000,000


 4,000,000


 3,000,000

                                                                                   1,942,929                                         1,749,590      1,875,353
                                                                                                     1,720,683
 2,000,000
                                                                         981,255                                         1,567,023
                                                                                               931,011                                      1,089,580
                                                                   790,729
 1,000,000           142,891
                                       42,956             46,349
             7,737             3,705            13,702
        0
              FY 96               FY 97             FY 98            FY 99              FY 00               FY 01               FY 02              FY 03

 Source: Collection Reports 5000-2 and 5000-4.

Figure 12. Gap Between New Delinquent Accounts and Account Closures. The gap
between unpaid account receipts and closures decreased for FY 2003, but the number of receipts
has been greater than the number of closures each year since FY 1997. The closures included
here do not include the unpaid accounts shelved, shown above in Figure 11.

                                                         TDA Receipts                                            TDA Closures
 6,000,000


 5,000,000


 4,000,000


 3,000,000


 2,000,000


 1,000,000


         0
               FY 96               FY 97            FY 98             FY 99              FY 00              FY 01               FY 02              FY 03

 Source: Collection Report 5000-2.




                                                                                                                                                        Page 25
                                                    Trends in Compliance Activities Through Fiscal Year 2003

Figure 13. Number of Taxpayers and Amounts Owed in the Queue. While the number of
taxpayers with unpaid accounts in the Queue increased during FY 2003, the average amount
owed decreased from $39,500 in FY 2002 to $32,500 in FY 2003.

                                                                     Am ount Owed                      Num ber of Taxpayers
                                   $25                                                                                                             600,000



                                   $20                                                                                                             500,000
     Amount Owed ($ in Billions)




                                                                                                                                                             Number of Taxpayers
                                   $15                                                                                                             400,000



                                   $10                                                                                                             300,000



                                    $5                                                                                                             200,000



                                    $0                                                                                                             100,000
                                            FY 96        FY 97        FY 98        FY 99           FY 00        FY 01       FY 02       FY 03

 Source: Collection Report 5000-2.

Figure 14. Number of Delinquent Accounts Closed Each Year, Not Including Shelved
Accounts. The number of delinquent unpaid accounts closed by the ACS and CFf showed
substantial increases in FY 2003. In addition, as more accounts are left in the Queue, there are
more closed after voluntary action by taxpayers while in that unassigned status.
                                                             ACS                           CFf                          Queue & SCCB

 3,500,000
                                         3,129,974     3,201,808

 3,000,000                                                           2,814,025
                                                                                                                                                2,555,754
 2,500,000
                                                                                                                     2,013,562    1,975,215
 2,000,000                                                                          1,873,520       1,819,424
                                           1,696,008     1,676,949

 1,500,000                                                             1,327,863

                                                                                        951,984                                                    880,939
 1,000,000                                                                                                 771,455      757,392      724,430

   500,000                                                                                                                              314,124       370,217
                                                                                                                           269,855
                                               164,731       133,905          146,807       128,930          180,991

                                     0
                                             FY 96         FY 97         FY 98             FY 99           FY 00         FY 01         FY 02        FY 03

 Source: Collection Report 5000-2.




                                                                                                                                                      Page 26
                            Trends in Compliance Activities Through Fiscal Year 2003

Figure 15. Number of Delinquent Accounts Closed by Full Payment. The number of
accounts closed by full payment increased in FY 2003. There has been a steady increase since
FY 2000 for the CFf and the Queue. The ACS number dropped in FY 2002; it recovered in
FY 2003 but not back to the FY 2001 level.
                                          ACS                                  CFf                               Queue & SCCB
 1,000,000
                  901,145          893,620
   900,000
                                                     793,958
   800,000                                                                                                    742,563                            723,659
                                                                        688,622             679,872
   700,000                                                                                                                      644,301

   600,000
                   481,409           494,567
   500,000
                                                       398,718
   400,000
                                                                                                                                                   330,934
                                                                             275,981                                              269,139
   300,000                                                                                                      239,503
                                                                                              235,797

   200,000                                                                                                                            137,179        153,839
                                                                                                                     105,609
   100,000                                                  49,798                                  64,312
                        35,200            42,702                                 38,227

           0
                    FY 96             FY 97             FY 98                FY 99              FY 00             FY 01            FY 02            FY 03

 Source: Collection Report 5000-2.

Figure 16. Liens Filed by the CFf and ACS. The total number of liens filed has increased by
227 percent since FY 1999.
                                                                       CFf                                              ACS
   8 0 0 ,0 0 0


   7 0 0 ,0 0 0

                    2 6 1 ,0 2 7
   6 0 0 ,0 0 0


   5 0 0 ,0 0 0
                                      1 7 6 ,9 2 6
                                                                                                                                                   2 5 6 ,3 3 3
   4 0 0 ,0 0 0
                                                                                                                                  2 4 5 ,7 3 4
                                                         9 9 ,4 0 2                                              2 1 1 ,3 6 7
   3 0 0 ,0 0 0
                    4 8 9 ,1 9 8
                                                                              2 3 ,1 8 0       1 4 1 ,2 0 2
   2 0 0 ,0 0 0
                                      3 6 6 ,6 8 7
                                                        2 8 3 ,3 5 3                                                                               2 9 2 ,3 5 0
                                                                                                                 2 1 4 ,7 9 9     2 3 6 ,7 7 5
   1 0 0 ,0 0 0
                                                                             1 4 4 ,6 8 7      1 4 6 ,3 1 5

             0
                     FY 96             FY 97             FY 98                FY 99             FY 00             FY 01            FY 02            FY 03

 Source: Collection Report 5000-23 for FYs 2000 and prior and the Automated Lien System for FYs after 2000.




                                                                                                                                                        Page 27
                         Trends in Compliance Activities Through Fiscal Year 2003

Figure 17. Levies Issued by the CFf and ACS. The total number of levies issued has
continuously increased since FY 2000. However, the number of levies issued by the CFf
dropped off slightly. This could be due to the increased emphasis on working trust fund cases.

                                                   CFf                                               ACS
  4,000,000

  3,500,000                      2,968,489


  3,000,000      2,409,891


  2,500,000
                                                 2,029,928

  2,000,000

  1,500,000                                                                                                                              1,538,094

                                                                                                                         1,140,487
  1,000,000                                                                                               533,405
                                                                   397,656
                                                                                      144,881
   500,000     699,035       690,928
                                             473,481
                                                             106,747         74,897             140,675             143,255          142,750
           0
                  FY 96           FY 97           FY 98            FY 99              FY 00           FY 01               FY 02           FY 03

 Source: Collection Report 5000-23 and Customer Service Activity Reports for FYs after 2000.

Figure 18. Number of Seizures Made Each FY. The number of seizures made in FY 2003 is
up 439 percent from FY 2000 but is still only about 4 percent of the seizures made in FY 1996.

  12,000
               10,449
                               10,090
  10,000


   8,000


   6,000


   4,000
                                                 2,307
   2,000

                                                                  161                                 234                     296          399
                                                                                      74
       0
                FY 96           FY 97           FY 98            FY 99           FY 00               FY 01               FY 02           FY 03

 Source: Collection Report 5000-23 and IRS Manual Reconciliation of Seizure Logs.




                                                                                                                                           Page 28
                    Trends in Compliance Activities Through Fiscal Year 2003

Figure 19. Examination Coverage of All Tax Returns – Percentage Change From FY 1988.
While the examination coverage of tax returns is still far below the level in FY 1999, the growth
in examination coverage outpaced the growth in returns filed during FY 2003.

                                                      Returns Filed          Returns Exam ined

  30%
  20%
  10%
    0%
  -10%
  -20%
  -30%
  -40%
  -50%
  -60%
  -70%
        88


               89


                      90


                             91


                                    92


                                            93


                                                        94


                                                               95


                                                                        96


                                                                               97


                                                                                       98


                                                                                              99


                                                                                                      00


                                                                                                              01


                                                                                                                       02


                                                                                                                                  03
      19


             19


                    19


                           19


                                  19


                                          19


                                                      19


                                                             19


                                                                      19


                                                                             19


                                                                                     19


                                                                                            19


                                                                                                    20


                                                                                                            20


                                                                                                                     20


                                                                                                                                20
 Source: TIGTA Analysis of IRS Data Book Information.

Figure 20. Revenue Agent Results on Individual Income Tax Returns (Forms 1040) –
Percentage Change From FY 1996. The hours per return and dollars per return increased
23 percent and 21 percent, respectively, for FY 2003. The combined effect is that dollars per
hour decreased 1 percent.
                           H o u rs P e r R e tu rn             D o lla rs P e r H o u r           D o lla rs P e r R e tu rn
  120%

  100%

   80%

   60%

   40%

   20%

    0%

  -2 0 %

  -4 0 %
             1996          1997            1998              1999            2000           2001           2002             2003

 Source: TIGTA Analysis of Examination Table 37.



                                                                                                                                Page 29
                    Trends in Compliance Activities Through Fiscal Year 2003

Figure 21. Revenue Agent Results on Corporate Income Tax Returns – Percentage Change
From FY 1996. The hours per return and dollars per return increased 16 percent and 3 percent,
respectively, for FY 2003. The combined effect is that dollars per hour decreased 11 percent.

                         H o u r s P e r R e tu r n     D o lla r s P e r H o u r          D o lla r s P e r R e tu r n
  120%

  100%

   80%

   60%

   40%

   20%

    0%

  -2 0 %

  -4 0 %
             1996        1997             1998        1999          2000            2001            2002              2003

 Source: TIGTA Analysis of Examination Table 37.

Figure 22. Revenue Agent Results on Other Types of Tax Returns – Percentage Change
From FY 1996. The hours per return and dollars per return increased 11 percent and 2 percent,
respectively, for FY 2003. The combined effect is that dollars per hour decreased 9 percent.
                         H o u rs P e r R e tu rn       D o lla r s P e r H o u r          D o lla r s P e r R e t u r n
  200%

  180%

  160%

  140%

  120%

  100%

   80%

   60%

   40%

   20%

    0%
             1996        1997             1998        1999          2000            2001            2002              2003

 Source: TIGTA Analysis of Examination Table 37.




                                                                                                                           Page 30
                            Trends in Compliance Activities Through Fiscal Year 2003

Figure 23. Tax Compliance Officer Results on Forms 1040 – Percentage Change From
FY 1996. The hours per return and dollars per return increased 22 percent and 20 percent,
respectively, for FY 2003. The combined effect is that dollars per hour decreased 2 percent.
                                 H o u rs P e r R e tu rn               D o lla r s P e r H o u r                  D o lla r s P e r R e tu r n
   200%


   150%


   100%


    50%


      0%


   -5 0 %


  -1 0 0 %
                     1996        1997            1998              1999              2000               2001               2002              2003

 Source: TIGTA Analysis of Examination Table 37.

Figure 24. Number of Forms 1040 Examined Face-to-Face or Through Correspondence.
The total number of face-to-face and correspondence examinations increased during FY 2003 for
individuals with income under $100,000 and for those with income of $100,000 and over.
                                                In d iv id u a ls U n d e r $ 1 0 0 ,0 0 0 ; F a c e -to -fa c e
                                                In d iv id u a ls U n d e r $ 1 0 0 ,0 0 0 ; C o rre s p o n d e n c e
                                                In d iv id u a ls $ 1 0 0 ,0 0 0 a n d o ve r; F a c e -to -fa c e
                                                In d iv id u a ls $ 1 0 0 ,0 0 0 a n d o ve r; C o rre s p o n d e n c e
   1 ,4 0 0 ,0 0 0

   1 ,2 0 0 ,0 0 0

   1 ,0 0 0 ,0 0 0

     8 0 0 ,0 0 0

     6 0 0 ,0 0 0

     4 0 0 ,0 0 0

     2 0 0 ,0 0 0

                0
                        1996         1997            1998              1999             2000              2001               2002            2003

 Source: TIGTA Analysis of Examination Table 37.




                                                                                                                                                  Page 31
                       Trends in Compliance Activities Through Fiscal Year 2003

Figure 25. Percentage of Forms 1040 Examined Face-to-Face or Through Correspondence.
During FY 2003, the coverage rate for face-to-face examinations of non-business individual tax
returns went up for all categories of income under $100,000, except for those with incomes
under $25,000. Business individual tax returns had higher coverage except for Schedule C
businesses with income of $100,000 and over. The coverage rate for correspondence
examinations of individual tax returns went up except for the simple Forms 1040A and 1040
with farm income over $100,000.
  2 .5 0 %
                                                                                        F a c e to F a c e -
                                                                                        In c o m e U n d e r
  2 .0 0 %                                                                              $ 1 0 0 ,0 0 0

                                                                                        F a c e to F a c e -
  1 .5 0 %                                                                              In c o m e $ 1 0 0 ,0 0 0
                                                                                        & O ver

                                                                                        C o rre s p o n d e n c e -
  1 .0 0 %                                                                              In c o m e U n d e r
                                                                                        $ 1 0 0 ,0 0 0

  0 .5 0 %                                                                              C o rre s p o n d e n c e -
                                                                                        In c o m e $ 1 0 0 ,0 0 0
                                                                                        & O ver
  0 .0 0 %
             1996       1997   1998    1999    2000       2001   2002     2003

 Source: TIGTA Analysis of Examination Table 37.

Figure 26. Number of Forms 1040 Examined by Compliance Center Correspondence.
During FY 2003, the number of examinations that Compliance Centers conducted by
correspondence increased for all categories of tax returns. The fluctuation for examinations of
non-business tax returns with income under $25,000 was largely based on the number of Earned
Income Tax Credit examinations.
             809,604
 600,000

                                                                                              All Non-Business
 500,000                                                                                      < $25,000


 400,000                                                                                      All Non-Business
                                                                                              $25,000 or More
 300,000

                                                                                              All Business
 200,000                                                                                      <$25,000


 100,000                                                                                      All Business
                                                                                              $25,000 or More

       0
             1996       1997    1998    1999       2000      2001       2002     2003

 Source: TIGTA Analysis of IRS Data Book Information.



                                                                                                        Page 32
                       Trends in Compliance Activities Through Fiscal Year 2003

Figure 27. Number of Forms 1040 Examined by Field Offices. During FY 2003, the number
of examinations conducted by field offices increased for most categories of tax returns. The
number of examinations of non-business tax returns with income under $25,000 was down, and
the number was down slightly for business tax returns with income $100,000 and over.
 275,000
                                                                                                   All Non-B usiness
 250,000                                                                                           < $25,000

 225,000
                                                                                                   All Non-B usiness
 200,000                                                                                           $25,000 -
                                                                                                   $99,999
 175,000                                                                                           All Non-B usiness
                                                                                                   $100,000 & O ver
 150,000

 125,000                                                                                           All B usiness
                                                                                                   <$25,000
 100,000

  75,000                                                                                           All B usiness
                                                                                                   $25,000 -
  50,000                                                                                           $99,999
                                                                                                   All B usiness
  25,000                                                                                           $100,000 & O ver
         0
               1996      1997         1998   1999        2000     2001   2002        2003

 Source: TIGTA Analysis of IRS Data Book Information.

Figure 28. Percentage of Forms 1040 Examined. This shows the comparison in examination
rates (total correspondence and face-to-face) for tax returns with business or farm income and
those over or under $100,000 without any business or farm income. The percentage examined
for all of the categories increased during FY 2003.
             11%
 7%
                                                                                                      1040 Non-
                                                                                                      business or
 6%                                                                                                   Farm $100,000
                                                                                                      & Over
 5%                                                                                                   1040 Non-
                                                                                                      business or
 4%                                                                                                   Farm Under
                                                                                                      $100,000
 3%                                                                                                   1040 with
                                                                                                      Schedule C
                                                                                                      Business
 2%                                                                                                   Incom e
                                                                                                      1040 with
 1%                                                                                                   Schedule F
                                                                                                      Farm Incom e
 0%
    88

           89

           90

                        91

                               92

                                      93

                                             94

                                             95

                                                    96

                                                           97

                                                                  98

                                                                         99

                                                                         00

                                                                                01

                                                                                       02

                                                                                              03
  19

         19

         19

                      19

                             19

                                    19

                                           19

                                           19

                                                  19

                                                         19

                                                                19

                                                                       19

                                                                       20

                                                                              20

                                                                                     20

                                                                                            20




 Source: TIGTA Analysis of IRS Data Book Information.



                                                                                                             Page 33
                                                   Trends in Compliance Activities Through Fiscal Year 2003

Figure 29. Percentage Examined – Forms 1040 With No Business or Farm Income. The
percentage of Forms 1040 examined increased during FY 2003 for all categories except
Forms 1040A. Most of the increase was due to large increases in the number of examinations
conducted by Compliance Centers.
                                      11%
 7%                                                                                                                                                  1040A
                                                                                                                                                     Under
 6%                                                                                                                                                  $25,000


 5%                                                                                                                                                  1040
                                                                                                                                                     Under
                                                                                                                                                     $25,000
 4%
                                                                                                                                                     1040
 3%                                                                                                                                                  $25,000-
                                                                                                                                                     49,999

 2%                                                                                                                                                  1040
                                                                                                                                                     $50,000-
 1%                                                                                                                                                  99,999


 0%                                                                                                                                                  1040
                                                                                                                                                     $100,000
                                                                                                                                                     & Over
          88


                                    89


                                              90


                                                     91


                                                            92


                                                                   93


                                                                          94


                                                                                 95


                                                                                        96


                                                                                               97


                                                                                                      98


                                                                                                             99


                                                                                                                    00


                                                                                                                           01


                                                                                                                                  02


                                                                                                                                         03
        19


                                  19


                                            19


                                                   19


                                                          19


                                                                 19


                                                                        19


                                                                               19


                                                                                      19


                                                                                             19


                                                                                                    19


                                                                                                           19


                                                                                                                  20


                                                                                                                         20


                                                                                                                                20


                                                                                                                                       20
 Source: TIGTA Analysis of IRS Data Book Information.

Figure 30. Examination Coverage of Non-business Forms 1040 – Under $100,000. The
number of non-business tax returns filed with income under $100,000 has continued to steadily
increase since FY 1994. During FY 2003, the examination coverage rate for these returns
increased by 11 percent, mainly due to large increases in the number of examinations conducted
by Compliance Centers.

                                                                   Returns Filed                              Returns Examined
                                115                                                                                                                   1,800

                                                                                                                                                      1,600




                                                                                                                                                              Returns Examined (in Thousands)
                                110
  Returns Filed (in Millions)




                                                                                                                                                      1,400

                                105                                                                                                                   1,200

                                                                                                                                                      1,000
                                100
                                                                                                                                                      800

                                 95                                                                                                                   600

                                                                                                                                                      400
                                 90
                                                                                                                                                      200

                                 85                                                                                                                   0
                                    88


                                           89


                                                     90


                                                            91


                                                                   92


                                                                          93


                                                                                 94


                                                                                        95


                                                                                               96


                                                                                                      97


                                                                                                             98


                                                                                                                    99


                                                                                                                           00


                                                                                                                                  01


                                                                                                                                         02


                                                                                                                                                03
                                  19


                                         19


                                                   19


                                                          19


                                                                 19


                                                                        19


                                                                               19


                                                                                      19


                                                                                             19


                                                                                                    19


                                                                                                           19


                                                                                                                  19


                                                                                                                         20


                                                                                                                                20


                                                                                                                                       20


                                                                                                                                              20




 Source: TIGTA Analysis of IRS Data Book Information.


                                                                                                                                                     Page 34
                                                    Trends in Compliance Activities Through Fiscal Year 2003

Figure 31. Examination Coverage of Non-business Forms 1040 – $100,000 and Over.
While the number of non-business tax returns filed with income over $100,000 increased during
FY 2003, the rate of increase was not as great as those in prior years. During FY 2003, the
examination coverage rate for these returns increased by 31 percent, mainly due to a large
increase in the number of examinations conducted by Compliance Centers.

                                                                       Returns Filed                                     Returns Examined
                                 12                                                                                                                                                        240




                                                                                                                                                                                                 Returns Examined (in Thousands)
                                 10
                                                                                                                                                                                           190
   Returns Filed (in Millions)




                                  8
                                                                                                                                                                                           140

                                  6

                                                                                                                                                                                           90
                                  4

                                                                                                                                                                                           40
                                  2


                                  0                                                                                                                                                        -10
                                    88


                                            89


                                                    90


                                                            91


                                                                    92


                                                                               93


                                                                                       94


                                                                                              95


                                                                                                      96


                                                                                                              97


                                                                                                                      98


                                                                                                                              99


                                                                                                                                         00


                                                                                                                                                 01


                                                                                                                                                        02


                                                                                                                                                                       03
                                  19


                                          19


                                                  19


                                                          19


                                                                  19


                                                                             19


                                                                                     19


                                                                                            19


                                                                                                    19


                                                                                                            19


                                                                                                                    19


                                                                                                                            19


                                                                                                                                       20


                                                                                                                                               20


                                                                                                                                                      20


                                                                                                                                                                     20
 Source: TIGTA Analysis of IRS Data Book Information.

Figure 32. Examination Coverage of Forms 1040 With Business Income (Excluding
Farms). During FY 2003, the total number of individual tax returns filed with business income
increased as did the percent examined in each of the categories. The examination coverage
increases were mainly due, once again, to large increases in the number of examinations
conducted by Compliance Centers.
                                 7%                                                                                                                      9

                                                                                                                                                         8
                                 6%                                                                                                                                                        TGR
                                                                                                                                                                                           $100,000
                                                                                                                                                         7
                                                                                                                                                                                           & Over
                                                                                                                                                             Returns Filed (in Millions)




                                 5%
                                                                                                                                                         6
  Percent Examined




                                                                                                                                                                                           TGR
                                 4%                                                                                                                      5                                 $25,000-
                                                                                                                                                                                           $99,999

                                 3%                                                                                                                      4
                                                                                                                                                                                           TGR
                                                                                                                                                         3                                 Under
                                 2%                                                                                                                                                        $25,000
                                                                                                                                                         2
                                 1%                                                                                                                                                        Sch C
                                                                                                                                                         1                                 Returns
                                                                                                                                                                                           Filed
                                 0%                                                                                                                      0
                                    88

                                           89

                                                   90

                                                          91

                                                                 92


                                                                        93

                                                                                94

                                                                                       95

                                                                                              96

                                                                                                     97

                                                                                                             98


                                                                                                                    99

                                                                                                                           00

                                                                                                                                  01

                                                                                                                                          02

                                                                                                                                                 03
                                  19

                                         19

                                                 19

                                                        19

                                                               19


                                                                      19

                                                                              19

                                                                                     19

                                                                                            19

                                                                                                   19

                                                                                                           19


                                                                                                                  19

                                                                                                                         20

                                                                                                                                20

                                                                                                                                        20

                                                                                                                                               20




Source: TIGTA Analysis of IRS Data Book Information. TGR = Total Gross Receipts.
                                                                                                                                                                                           Page 35
                                                     Trends in Compliance Activities Through Fiscal Year 2003

Figure 33. Examination Coverage of Forms 1040 With Farm Income. The number of
Forms 1040 with farm income continued to decrease in FY 2003. There was a slight increase in
examination coverage due to increases in the number of Revenue Agent examinations of these
tax returns.

                                                                     Returns Filed                               Returns Exam ined
                                  1,000                                                                                                                    25
                                   900
   Returns Filed (in Thousands)




                                                                                                                                                                Returns Examined (in Thousands)
                                   800                                                                                                                     20
                                   700
                                   600                                                                                                                     15
                                   500
                                   400                                                                                                                     10
                                   300
                                   200                                                                                                                     5
                                   100
                                      0                                                                                                                    0
                                        88

                                                89

                                                       90

                                                              91

                                                                     92

                                                                            93


                                                                                   94

                                                                                           95

                                                                                                  96

                                                                                                         97


                                                                                                                98

                                                                                                                       99


                                                                                                                               00

                                                                                                                                      01

                                                                                                                                             02

                                                                                                                                                    03
                                      19

                                              19


                                                     19

                                                            19


                                                                   19

                                                                          19


                                                                                 19

                                                                                         19

                                                                                                19

                                                                                                       19


                                                                                                              19

                                                                                                                     19

                                                                                                                             20

                                                                                                                                    20

                                                                                                                                           20


                                                                                                                                                  20
 Source: TIGTA Analysis of IRS Data Book Information.

Figure 34. Examination Coverage of All Corporate Income Tax Returns – Percentage
Change From FY 1988 to FY 2003. The number of corporate tax returns filed continued the
steady increase during FY 2003. The number of returns examined decreased for all corporate tax
return categories except for those filed with no balance sheet. Overall, 1 in 155 corporate tax
returns were examined in FY 2002; this decreased to 1 in 182 in FY 2003.
                                                                     Returns Filed                                   Returns Exam ined
  200%


  150%


  100%


            50%


                              0%


   -50%


  -100%
                                      88


                                               89


                                                       90


                                                              91


                                                                     92


                                                                            93


                                                                                    94


                                                                                             95


                                                                                                    96


                                                                                                            97


                                                                                                                   98


                                                                                                                              99


                                                                                                                                      00


                                                                                                                                             01


                                                                                                                                                    02


                                                                                                                                                           03
                                    19


                                             19


                                                     19


                                                            19


                                                                   19


                                                                          19


                                                                                  19


                                                                                           19


                                                                                                  19


                                                                                                          19


                                                                                                                 19


                                                                                                                            19


                                                                                                                                    20


                                                                                                                                           20


                                                                                                                                                  20


                                                                                                                                                         20




 Source: TIGTA Analysis of IRS Data Book Information.


                                                                                                                                                         Page 36
                        Trends in Compliance Activities Through Fiscal Year 2003

Figure 35. Percentage of Corporate Income Tax Returns Examined – Corporations With
Assets Under $10 Million. During FY 2003, the percentage of corporate tax returns with no
balance sheet that were examined increased; with assets under $250,000 remained unchanged;
and with assets between $250,000 and $10 million decreased.
 20%
                                                                                                                    A s s e ts
 18%                                                                                                                $5M -
                                                                                                                    $ 9 .9 M
 16%
                                                                                                                    A s s e ts
 14%                                                                                                                $1M -
                                                                                                                    $ 4 .9 M
 12%
                                                                                                                    A s s e ts
 10%                                                                                                                $ 2 5 0 ,0 0 0 -
                                                                                                                    $ 0 .9 M
  8%
                                                                                                                    A s s e ts
  6%                                                                                                                Under
                                                                                                                    $ 2 5 0 ,0 0 0
  4%
                                                                                                                    No
  2%                                                                                                                B a la n ce
                                                                                                                    Sheet
  0%
    88

           89

                  90

                         91

                                 92

                                         93

                                                94

                                                       95

                                                              96

                                                                     97

                                                                            98

                                                                                   99

                                                                                          00

                                                                                                 01

                                                                                                        02

                                                                                                               03
  19

         19

                19

                       19

                               19

                                       19

                                              19

                                                     19

                                                            19

                                                                   19

                                                                          19

                                                                                 19

                                                                                        20

                                                                                               20

                                                                                                      20

                                                                                                             20
Source: TIGTA Analysis of IRS Data Book Information.

Figure 36. Percentage of Corporate Income Tax Returns Examined – Corporations With
Assets $10 Million and Over. During FY 2003, the percentage of corporate tax returns
examined in the asset classes over $10 million decreased.

 80%
                                                                                                                    A ss ets
 70%                                                                                                                $2 5 0 M &
                                                                                                                    O ve r
 60%
                                                                                                                    A ss ets
 50%                                                                                                                $1 0 0 M -
                                                                                                                    $2 4 9 .9M
 40%
                                                                                                                    A ss ets
 30%                                                                                                                $5 0 M -
                                                                                                                    $9 9 .9 M
 20%
                                                                                                                    A ss ets
 10%                                                                                                                $1 0 M -
                                                                                                                    $4 9 .9 M
  0%
     88

            89

                   90

                          91

                                  92

                                         93

                                                94

                                                       95

                                                              96

                                                                     97

                                                                            98

                                                                                   99

                                                                                          00

                                                                                                 01

                                                                                                        02

                                                                                                               03
   19

          19

                 19

                        19

                                19

                                       19

                                              19

                                                     19

                                                            19

                                                                   19

                                                                          19

                                                                                 19

                                                                                        20

                                                                                               20

                                                                                                      20

                                                                                                             20




Source: TIGTA Analysis of IRS Data Book Information.



                                                                                                                          Page 37
                                                     Trends in Compliance Activities Through Fiscal Year 2003

Figure 37. Examination Coverage of Corporations With Assets Under $10 Million. The
number of corporate tax returns filed with assets under $10 million was unchanged during
FY 2003, but the number of tax returns examined decreased by 7 percent.

                                                                      Returns Filed                                 Returns Exam ined
                                  3,000                                                                                                                      100




                                                                                                                                                                       Returns Examined (in Thousands)
                                  2,900                                                                                                                      90
  Returns Filed (in Thousands)




                                  2,800                                                                                                                      80
                                  2,700                                                                                                                      70
                                  2,600                                                                                                                      60
                                  2,500                                                                                                                      50
                                  2,400                                                                                                                      40
                                  2,300                                                                                                                      30
                                  2,200                                                                                                                      20
                                  2,100                                                                                                                      10
                                  2,000                                                                                                                      0
                                         88


                                                89


                                                       90


                                                              91


                                                                     92


                                                                            93


                                                                                   94


                                                                                          95

                                                                                                 96


                                                                                                        97


                                                                                                               98


                                                                                                                       99


                                                                                                                               00


                                                                                                                                       01


                                                                                                                                               02


                                                                                                                                                       03
                                       19


                                              19


                                                     19


                                                            19


                                                                   19

                                                                          19


                                                                                 19


                                                                                        19

                                                                                               19


                                                                                                      19


                                                                                                             19


                                                                                                                     19


                                                                                                                             20


                                                                                                                                     20


                                                                                                                                             20


                                                                                                                                                     20
Source: TIGTA Analysis of IRS Data Book Information.

Figure 38. Examination Coverage of Corporations With Assets $10 Million and Over.
During FY 2003, the number of corporate tax returns filed with assets over $10 million
decreased 1 percent while the number of returns examined decreased 16 percent.
                                                                   Returns Filed                                  Returns E xam ined
                                  60                                                                                                                        15




                                                                                                                                                                   Returns Examined (in Thousands)
                                                                                                                                                            14
   Returns Filed (in Thousands)




                                  55
                                                                                                                                                            13
                                  50
                                                                                                                                                            12

                                  45                                                                                                                        11

                                                                                                                                                            10
                                  40
                                                                                                                                                            9
                                  35
                                                                                                                                                            8

                                  30                                                                                                                        7
                                     88


                                            89

                                                   90


                                                          91


                                                                 92


                                                                         93

                                                                                94


                                                                                        95


                                                                                               96


                                                                                                      97

                                                                                                             98


                                                                                                                      99


                                                                                                                              00


                                                                                                                                      01

                                                                                                                                              02


                                                                                                                                                      03
                                   19


                                          19


                                                 19


                                                        19


                                                               19


                                                                       19


                                                                              19


                                                                                      19


                                                                                             19


                                                                                                    19


                                                                                                           19


                                                                                                                    19


                                                                                                                            20


                                                                                                                                    20


                                                                                                                                            20


                                                                                                                                                    20




Source: TIGTA Analysis of IRS Data Book Information.




                                                                                                                                                            Page 38
                                                     Trends in Compliance Activities Through Fiscal Year 2003

Figure 39. Examination Coverage of S Corporations (Form 1120S). The upward trend in the
number of Forms 1120S filed continued in FY 2003, with a 6 percent increase from FY 2002.
During the same time period, the number of examinations decreased by 17 percent.

                                                                         Returns Filed                                       Returns Exam ined
                                 3,500                                                                                                                                35




                                                                                                                                                                            Returns Examined (in Thousands)
                                 3,000                                                                                                                                30
  Returns Filed (in Thousands)




                                 2,500                                                                                                                                25

                                 2,000                                                                                                                                20

                                 1,500                                                                                                                                15

                                 1,000                                                                                                                                10

                                  500                                                                                                                                 5

                                    0                                                                                                                                 0
                                        88


                                                89


                                                        90


                                                                91


                                                                        92


                                                                                93


                                                                                        94


                                                                                                95


                                                                                                        96


                                                                                                                97


                                                                                                                        98


                                                                                                                                99


                                                                                                                                        00


                                                                                                                                                01


                                                                                                                                                        02


                                                                                                                                                                03
                                     19


                                             19


                                                     19


                                                             19


                                                                     19


                                                                             19


                                                                                     19


                                                                                             19


                                                                                                     19


                                                                                                             19


                                                                                                                     19


                                                                                                                             19


                                                                                                                                     20


                                                                                                                                             20


                                                                                                                                                     20


                                                                                                                                                             20
 Source: TIGTA Analysis of IRS Data Book Information.

Figure 40. Examination Coverage of Partnership Income Tax Returns. The number of
partnership tax returns filed continued to increase at the rate of about 100,000 per year since
FY 1996, to 2.3 million in FY 2003. During FY 2003, the number of returns examined increased
42 percent, but only 1 out of every 289 partnership returns is examined.

                                                                        Returns Filed                                        Returns Examined
                                 2,500                                                                                                                                 25




                                                                                                                                                                                       Returns Examined (in Thousands)
  Returns Filed (in Thousands)




                                 2,000                                                                                                                                 20


                                 1,500                                                                                                                                 15


                                 1,000                                                                                                                                 10


                                   500                                                                                                                                 5


                                     0                                                                                                                                 0
                                       88


                                               89


                                                        90


                                                               91


                                                                       92


                                                                               93


                                                                                       94


                                                                                               95


                                                                                                       96


                                                                                                               97


                                                                                                                       98


                                                                                                                                99


                                                                                                                                       00


                                                                                                                                               01


                                                                                                                                                       02


                                                                                                                                                               03
                                     19


                                             19


                                                      19


                                                             19


                                                                     19


                                                                             19


                                                                                     19


                                                                                             19


                                                                                                     19


                                                                                                             19


                                                                                                                     19


                                                                                                                              19


                                                                                                                                     20


                                                                                                                                             20


                                                                                                                                                     20


                                                                                                                                                             20




 Source: TIGTA Analysis of IRS Data Book Information.




                                                                                                                                                                     Page 39
                                                         Trends in Compliance Activities Through Fiscal Year 2003

Figure 41. Examination Coverage of Fiduciary Income Tax Returns. During FY 2003, the
number of income tax returns filed by estates and trusts dropped by 7 percent and the number of
tax returns examined decreased by 16 percent. As a result, examination coverage decreased by
10 percent.
                                                                                  Returns Filed                                    Returns Exam ined
                                 4,500                                                                                                                                             9




                                                                                                                                                                                       Returns Examined (in Thousands)
                                 4,000                                                                                                                                             8
  Returns Filed (in Thousands)




                                 3,500                                                                                                                                             7
                                 3,000                                                                                                                                             6
                                 2,500                                                                                                                                             5
                                 2,000                                                                                                                                             4
                                 1,500                                                                                                                                             3
                                 1,000                                                                                                                                             2
                                   500                                                                                                                                             1
                                        0                                                                                                                                          0
                                            8


                                                       9


                                                                  0


                                                                          1


                                                                                   2


                                                                                           3


                                                                                                   4


                                                                                                           5


                                                                                                                   6


                                                                                                                           7


                                                                                                                                   8


                                                                                                                                            9


                                                                                                                                                    0


                                                                                                                                                            1


                                                                                                                                                                    2


                                                                                                                                                                            3
                                           8


                                                     8


                                                                9


                                                                           9


                                                                                    9


                                                                                            9


                                                                                                    9


                                                                                                            9


                                                                                                                    9


                                                                                                                            9


                                                                                                                                    9


                                                                                                                                             9


                                                                                                                                                     0


                                                                                                                                                             0


                                                                                                                                                                     0


                                                                                                                                                                             0
                                        19


                                                  19


                                                             19


                                                                        19


                                                                                 19


                                                                                         19


                                                                                                 19


                                                                                                         19


                                                                                                                 19


                                                                                                                         19


                                                                                                                                 19


                                                                                                                                          19


                                                                                                                                                  20


                                                                                                                                                          20


                                                                                                                                                                  20


                                                                                                                                                                          20
 Source: TIGTA Analysis of IRS Data Book Information.

Figure 42. Examination Coverage of Employment Tax Returns. During FY 2003, the
number of employment tax returns increased by 2 percent and the number of tax returns
examined decreased by 5 percent. As a result, examination coverage dropped by 7 percent.

                                                                                  Returns Filed                                         Returns Exam ined
                                 30.0                                                                                                                                             80




                                                                                                                                                                                                     Returns Examined ( in Thousands)
                                                                                                                                                                                  70
                                 29.5
  Returns Filed (in Millions)




                                                                                                                                                                                  60
                                 29.0
                                                                                                                                                                                  50

                                 28.5                                                                                                                                             40

                                                                                                                                                                                  30
                                 28.0
                                                                                                                                                                                  20
                                 27.5
                                                                                                                                                                                  10

                                 27.0                                                                                                                                             0
                                      88

                                                  89

                                                             90

                                                                        91

                                                                                 92


                                                                                          93

                                                                                                  94


                                                                                                          95

                                                                                                                  96

                                                                                                                          97

                                                                                                                                  98


                                                                                                                                          99

                                                                                                                                                   00

                                                                                                                                                           01

                                                                                                                                                                   02


                                                                                                                                                                           03
                                    19

                                                19

                                                           19

                                                                      19

                                                                               19


                                                                                        19

                                                                                                19

                                                                                                        19

                                                                                                                19

                                                                                                                        19

                                                                                                                                19


                                                                                                                                        19


                                                                                                                                                 20

                                                                                                                                                         20

                                                                                                                                                                 20

                                                                                                                                                                         20




 Source: TIGTA Analysis of IRS Data Book Information.




                                                                                                                                                                                 Page 40
                                                     Trends in Compliance Activities Through Fiscal Year 2003

Figure 43. Examination Coverage of Excise Tax Returns. The number of excise tax returns
filed remained relatively steady, but the number of returns examined increased by 4 percent
during FY 2003.

                                                                    Returns Filed                                   Returns Exam ined
                                 1,200                                                                                                                   60




                                                                                                                                                              Returns Examined (in Thousands)
  Returns Filed (in Thousands)




                                 1,000                                                                                                                   50

                                  800                                                                                                                    40

                                  600                                                                                                                    30

                                  400                                                                                                                    20

                                  200                                                                                                                    10

                                    0                                                                                                                    0
                                         88

                                                89

                                                       90

                                                              91

                                                                     92

                                                                            93

                                                                                   94

                                                                                          95

                                                                                                 96

                                                                                                        97

                                                                                                               98

                                                                                                                       99

                                                                                                                              00

                                                                                                                                     01

                                                                                                                                            02

                                                                                                                                                   03
                                       19

                                              19

                                                     19

                                                            19

                                                                   19

                                                                          19

                                                                                 19

                                                                                        19

                                                                                               19

                                                                                                      19

                                                                                                             19

                                                                                                                     19

                                                                                                                            20

                                                                                                                                   20

                                                                                                                                          20

                                                                                                                                                 20
 Source: TIGTA Analysis of IRS Data Book Information.

Figure 44. Examination Coverage of Estate Tax Returns. During FY 2003, the number of
estate tax returns filed decreased by 7 percent and the number of returns examined increased by
2 percent, resulting in an increase in examination coverage of 9 percent.
                                                                     Returns Filed                              Returns Exam ined
                                 140                                                                                                                     14




                                                                                                                                                              Returns Examined (in Thousands)
  Returns Filed (in Thousands)




                                 120                                                                                                                     12

                                 100                                                                                                                     10

                                  80                                                                                                                     8

                                  60                                                                                                                     6

                                  40                                                                                                                     4

                                  20                                                                                                                     2

                                   0                                                                                                                     0
                                      88


                                                89


                                                       90


                                                              91


                                                                     92


                                                                            93


                                                                                   94


                                                                                          95

                                                                                                 96


                                                                                                        97


                                                                                                               98


                                                                                                                       99


                                                                                                                              00

                                                                                                                                     01


                                                                                                                                            02


                                                                                                                                                   03
                                    19


                                              19


                                                     19


                                                            19


                                                                   19


                                                                          19


                                                                                 19


                                                                                        19


                                                                                               19


                                                                                                      19


                                                                                                             19


                                                                                                                     19


                                                                                                                            20

                                                                                                                                   20


                                                                                                                                          20


                                                                                                                                                 20




 Source: TIGTA Analysis of IRS Data Book Information.




                                                                                                                                                        Page 41
                                                    Trends in Compliance Activities Through Fiscal Year 2003

Figure 45. Examination Coverage of Gift Tax Returns. In FY 2003, the number of gift tax
returns filed decreased 7 percent, but the number of returns examined remained relatively
constant. As a result, examination coverage increased by 5 percent in FY 2003.

                                                                          Returns Filed                                   Returns Exam ined
                                 350                                                                                                                                        3.5




                                                                                                                                                                                    Returns Examined (in Thousands)
                                 300                                                                                                                                        3.0
  Returns Filed (in Thousands)




                                 250                                                                                                                                        2.5

                                 200                                                                                                                                        2.0

                                 150                                                                                                                                        1.5

                                 100                                                                                                                                        1.0

                                  50                                                                                                                                        0.5

                                   0                                                                                                                                        0.0
                                     88

                                              89

                                                      90

                                                              91

                                                                      92

                                                                               93

                                                                                      94

                                                                                              95


                                                                                                      96

                                                                                                               97

                                                                                                                       98

                                                                                                                                99

                                                                                                                                       00

                                                                                                                                                01

                                                                                                                                                          02

                                                                                                                                                                   03
                                   19

                                            19

                                                    19

                                                            19

                                                                    19

                                                                             19

                                                                                    19

                                                                                            19

                                                                                                    19

                                                                                                             19

                                                                                                                     19

                                                                                                                              19

                                                                                                                                     20

                                                                                                                                              20

                                                                                                                                                        20

                                                                                                                                                                 20
 Source: TIGTA Analysis of IRS Data Book Information.

Figure 46. Other Compliance Contacts on Forms 1040. The number of contacts remained
relatively constant for the years reviewed except for FY 2002. The large increase in FY 2002 for
Math Error cases was the result of taxpayer confusion over the Rate Reduction Credit.
                                       14,000,000



                                       12,000,000



                                       10,000,000



                                        8,000,000



                                        6,000,000



                                        4,000,000



                                        2,000,000



                                                0
                                                         1996         1997           1998          1999         2000            2001             2002            2003

                                                1996               1997             1998            1999              2000             2001               2002            2003
  Math Error                                  4,750,771         5,983,944       5,668,906      6,552,290            5,751,462        6,082,967          13,315,765      4,967,703
  Underreporter                               1,930,326         931,354         1,726,098      1,770,695            1,353,545        1,161,901          1,491,139       1,561,068
  ASFR                                         719,913          392,598         426,495            584,142          332,427          333,770             242,637        466,816

 Source: TIGTA Analysis of “Report to Congress: IRS Tax Compliance Activities” (dated July 15, 2003) and IRS
 Data Book Information for FY 2003 data.

                                                                                                                                                                           Page 42
                       Trends in Compliance Activities Through Fiscal Year 2003

Figure 47. Other Compliance Contacts – Percentage of Coverage on Forms 1040. The
levels of coverage remained relatively constant for the years reviewed, except for the aberration
in FY 2002 as noted in Figure 46.
                                Math Error                      Underreporter                            ASFR
   14.0%

                                                                                                             0.2%
   12.0%
                                                                                                             1.2%
   10.0%


    8.0%
                                                           0.5%
                0.6%         0.3%       0.4%                                0.3%             0.3%
    6.0%                                                   1.4%
                                                                                                                             0.4%
                             0.8%        1.4%                                                0.9%           10.2%
                1.7%                                                       1.1%
                                                                                                                             1.2%
    4.0%

                             5.0%                          5.2%                              4.7%
                                         4.6%                              4.5%
    2.0%        4.0%                                                                                                         3.8%


    0.0%
                1996         1997       1998               1999            2000              2001            2002            2003

 Source: TIGTA Analysis of “Report to Congress: IRS Tax Compliance Activities”(dated July 15, 2003) and IRS
 Data Book Information for FY 2003 data.

Figure 48. Numbers and Percentages of Other Compliance Contacts on Forms 1040. This
chart shows the actual numbers and percentages of other compliance contacts on individual types
of tax returns. The FY 2002 Math Error aberration was explained in Figure 46 comments.
                                        FY 1996 FY 1997 FY 1998 FY 1999 FY 2000 FY 2001 FY 2002 FY 2003

Math Error                                   4,750,771   5,983,944   5,668,906   6,552,290   5,751,462    6,082,967 13,315,765    4,967,703

             Coverage Rate                      4.01%       4.97%       4.63%       5.25%       4.53%        4.70%      10.22%       3.80%

Underreporter                                1,930,326    931,354    1,726,098   1,770,695   1,353,545    1,161,901   1,491,139   1,561,068

             Coverage Rate                      1.66%       0.79%       1.43%       1.44%       1.08%        0.91%       1.15%       1.20%

ASFR                                          719,913     392,598     426,495      584,142    332,427      333,770     242,637      466,816

             Coverage Rate                      0.62%       0.33%       0.35%       0.48%       0.27%        0.26%       0.19%       0.36%

 Source: TIGTA Analysis of “Report to Congress: IRS Tax Compliance Activities”(dated July 15, 2003) and IRS
 Data Book Information for FY 2003 data.




                                                                                                                                  Page 43
                     Trends in Compliance Activities Through Fiscal Year 2003

Figure 49. Numbers and Percentages of Examinations on Forms 1040. This chart shows the
actual numbers and percentages of examination coverage for these individual types of tax
returns.
                                         FY 1996 FY 1997 FY 1998 FY 1999 FY 2000 FY 2001 FY 2002 FY 2003

Forms 1040A <$25,000
 Returns Examined                         921,820    659,094   515,015   600,949   256,650   357,954   289,136    182,222
             Coverage Rate                 2.00%      1.44%     1.14%     1.36%     0.60%     0.86%     0.71%      0.51%

Forms 1040 – Non-business
 Returns Examined < $25,000               155,125    157,978   104,050    76,215    51,567    55,624    90,781    197,005
             Coverage Rate                 1.17%      1.21%     0.81%     0.58%     0.37%     0.40%     0.64%      1.09%
 Returns Examined $25,000 & < $50,000     259,794    196,489   165,168   103,340    63,742    67,109    71,966     94,825
             Coverage Rate                 0.95%      0.70%     0.58%     0.36%     0.21%     0.22%     0.23%      0.30%
 Returns Examined $50,000 & < $100,000    196,582    140,330   121,384    77,698    51,954    53,433    69,620    105,400
             Coverage Rate                 1.16%      0.77%     0.62%     0.37%     0.23%     0.23%     0.28%      0.41%
 Returns Examined $100,000 and over       129,320    119,575   100,079    80,038    68,616    64,259    80,483    106,565
             Coverage Rate                 2.85%      2.27%     1.66%     1.14%     0.84%     0.69%     0.75%      0.98%

Forms 1040 - Schedule C
 Returns Examined < $25,000               102,558     78,553    60,023    68,450    61,695    69,332    67,876     81,541
             Coverage Rate                 4.21%      3.19%     2.37%     2.69%     2.43%     2.72%     2.67%      3.00%
 Returns Examined $25,000 & < $100,000     87,691     80,861    58,877    42,391    31,226    34,650    40,530     46,927
             Coverage Rate                 2.85%      2.57%     1.82%     1.30%     0.93%     1.02%     1.18%      1.33%
 Returns Examined $100,000 and over        71,050     73,049    59,728    44,945    28,781    24,080    29,848     30,738
             Coverage Rate                 4.09%      4.13%     3.25%     2.40%     1.48%     1.20%     1.45%      1.47%

Forms 1040 - Schedule F
 Returns Examined < $100,000                 7,944     5,868     3,949     2,832     1,384     2,104     1,709      1,997
             Coverage Rate                  1.59%     1.28%     0.93%     0.68%     0.35%     0.55%     0.47%      0.57%
 Returns Examined $100,000 and over         9,662      7,446     4,507     3,415     2,150     3,211     1,932      2,076
              Coverage Rate                 3.61%     2.75%     1.63%     1.23%     0.80%     1.18%     0.72%      0.78%
Source: TIGTA Analysis of IRS Data Book Information.




                                                                                                                 Page 44
                      Trends in Compliance Activities Through Fiscal Year 2003

Figure 50. Numbers and Percentages of Examinations on Business Tax Returns. This chart
shows the actual numbers and percentages of examination coverage for these nonindividual types
of tax returns.
                                      FY 1996 FY 1997 FY 1998 FY 1999 FY 2000 FY 2001 FY 2002 FY 2003

Corporations < $10 Million               46,568   56,323   41,818   28,268   18,623   14,332   14,655     13,608

               Coverage Rate             1.88%    2.22%    1.67%    1.16%    0.77%    0.60%    0.63%      0.58%

Corporations $10 Million and Over        12,891   12,972   11,830   10,537    9,212    8,718    8,443      7,125

               Coverage Rate             25.33%   24.29%   21.43%   19.05%   16.30%   15.08%   14.17%    12.08%

1120S                                    19,490   23,898   25,522   21,169   15,200   12,437   11,646      9,695

               Coverage Rate             0.92%    1.04%    1.04%    0.81%    0.55%    0.43%    0.39%      0.30%

Partnerships                              7,636    9,811   10,082    7,991    6,539    5,070    5,543      7,871

               Coverage Rate             0.49%    0.59%    0.58%    0.43%    0.33%    0.25%    0.26%      0.35%

Fiduciaries                               4,701    5,753    6,890    6,382    7,318    7,070    7,206      6,068

               Coverage Rate             0.15%    0.18%    0.21%    0.19%    0.22%    0.20%    0.18%      0.17%

Employment                               56,195   60,799   40,595   28,898   20,074   17,163   17,252     16,408

               Coverage Rate             0.20%    0.21%    0.14%    0.10%    0.07%    0.06%    0.06%      0.06%

Excise                                   32,900   24,701   19,858   12,562   10,294    8,169    8,426      8,756

               Coverage Rate             4.17%    3.14%    2.48%    1.53%    1.25%    0.96%    1.03%      1.05%

Estates                                  11,794   11,686   10,451    9,319    8,024    7,707    7,151      7,265

               Coverage Rate             14.47%   12.90%   10.22%   8.46%    6.89%    6.24%    5.84%      6.38%

Gift                                      1,934    2,085    2,010    2,369    2,097    2,005    1,899      1,855

               Coverage Rate             0.89%    0.90%    0.79%    0.91%    0.72%    0.65%    0.63%      0.66%
 Source: TIGTA Analysis of “Report to Congress: IRS Tax Compliance Activities” (dated July 15, 2003) and IRS
 Data Book Information for FYs 2002 and 2003.




                                                                                                        Page 45
